U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 30, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Bates v. United States, No. 20-5434
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 17,
2020. The government’s response is now due, after one extension, on October 21, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 6, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5434
BATES, TRESHUN DEVONTE
USA

BRANDON ELLIOT BECK
FEDERAL PUBLIC DEFENDERS OFFICE
1205 TEXAS AVENUE
SUITE 507
LUBBOCK, TX 79401
806-472-7236

